NOTICE: All slip opinions and orders are subject to formal
revision and are superseded by the advance sheets and bound
volumes of the Official Reports. If you find a typographical
error or other formal error, please notify the Reporter of
Decisions, Supreme Judicial Court, John Adams Courthouse, 1
Pemberton Square, Suite 2500, Boston, MA, 02108-1750; (617) 5571030; SJCReporter@sj c.state.ma.us
SJC-12732
IN THE MATTER OF ILYA LIVIZ.
May 12, 2020.
Attorney at Law, Disciplinary proceeding, Suspension, Contempt.
Contempt.
The respondent, Ilya Liviz, appeals from an order of a
single justice of this court administratively suspending him
from the practice of law, and from an order of a second single
justice adjudicating him in contempt for failing to comply with
the order of administrative suspension.1 We affirm.
On April 2, 2019, the first single justice administratively
suspended the respondent from the practice of law for failure to
respond to requests for information by bar counsel during the
course of her investigation of alleged professional misconduct.
See S.J.C. Rule 4:01, § 3 (1) (b), 3 (2), as appearing in 453
Mass. 1308 (2009). He was not reinstated within thirty days.
Accordingly, the terms of the suspension order, as well as
S.J.C. Rule 4:01, § 17, as amended, 425 Mass. 1321 (1997),
required that the respondent withdraw his appearances in all
pending matters; resign from fiduciary appointments; provide
notices to clients and to counsel in pending matters; close any
trust accounts and distribute trust funds and unearned fees;
make client files and property available to clients; and not
engage as a lawyer or in legal work while under suspension. The
respondent also was required to file an affidavit certifying
1 We have reviewed the respondent's preliminary memorandum
and record appendix, as well as the records that were before the
single justices. Pursuant to S.J.C. Rule 2:23, 471 Mass. 1303
(2015), governing appeals in bar discipline cases, we dispense
with oral argument.

2
compliance with the order and bar disciplinary rules.
S.J.C. Rule 4:01, § 17 (5) .

See

On June 6, 2019, bar counsel filed a complaint for
contempt, alleging that the respondent had failed to comply with
the order of administrative suspension. A substituted complaint
for contempt was filed on July 8, 2019. After a hearing, a
second single justice adjudged the respondent in civil contempt.
The respondent appeals from both orders.
With respect to the first order, the respondent was
administratively suspended from the practice of law because bar
counsel fulfilled the requirements of S.J.C. Rule 4:01, § 3 (2),
by filing a petition, accompanied by an affidavit of bar
counsel, and made a showing that the respondent failed without
good cause "to respond to requests for information by Bar
Counsel or the [board of bar overseers] made in the course of
the processing of a complaint. "2 S.J.C. Rule 4:01, § 3 (1). The
respondent alleged that he "DID COMPLY, and DID PROVIDE AN
ANSWER, and my answer was provided in a form of SILENCE.
(BOOM
SHARALAKA)." He also stated that, to the extent an answer was.
required, he "formally den[ied], and demand[ed] a Jury Trial."

2 By letter dated February 20, 2019, bar counsel provided to
the respondent a copy of a Federal District Court judge's order,
and a transcript of a hearing in that court. The respondent
represented the plaintiffs in that matter. Bar counsel
indicated that the materials raised questions of professional
misconduct, and requested the respondent to respond, with
supporting documentation. He was asked to provide, among other
things, the names and contact information for plaintiffs not
identified by name in the Federal litigation; the dates of his
engagement, engagement letters, and fee agreements; the dates of
his last communication with the plaintiffs; identifying
information concerning other litigation involving the
plaintiffs; identifying information concerning cases in which he
had been removed as counsel or ordered not to speak to
particular parties; cases in which he had been sued for
malpractice or otherwise; and cases in which he had appeared as
counsel since 2016.
The respondent did not produce any of the requested
documents. He did not assert that any one or more of bar
counsel's requests sought records that were not within the scope
of the required records doctrine. See Matter of Kenney, 399
Mass. 431, 438 (1987).

3
By failing without good cause to cooperate with bar
counsel's investigation of a complaint of misconduct, the
respondent violated S.J.C. Rule 4:01, § 3 (1). Silence in the
face of bar counsel's request for information is not, as the
respondent claims, a "response" categorically protected by the
privilege against compelled self-incrimination under the Fifth
Amendment to the United States Constitution. See Matter of
Kenney, 399 Mass. 431, 441 (1987) ("required records exception"
precludes "valid assertion of the Fifth Amendment privilege").
See also Stornanti v. Commonwealth, 389 Mass. 518, 521-522
(1983); Mass. R. Prof. C. 1.15A, 480 Mass. 1316 (2018)
(generally requiring retention of client files for six-year
period). He is not entitled to a jury trial. See Matter of
Carver, 224 Mass. 169, 172 (1916), and cases cited. See also
Matter of Garqano, 460 Mass. 1022, 1025 (2011). The respondent
has thus demonstrated no error in the single justice's order
administratively suspending him from the practice of law.3
We need go no further. The respondent makes no meaningful
attempt to challenge on appeal the second single justice's order
adjudging him in contempt for failing to comply with the first
single justice's order of administrative suspension. He focuses
instead on his claims concerning the validity of the suspension
order. We therefore consider the facts alleged in bar counsel's
complaint for contempt established for purposes of appeal. See
Matter of Shauqhnessy, 446 Mass. 1013, 1013 (2006). After a
3 Contrary to the respondent's claim, a single justice has
jurisdiction to issue an order of suspension. See S.J.C. Rule
4:01, § 1 (1), as amended, 430 Mass. 1319 (2000). The Supreme
Judicial Court and its single justices have "exclusive
disciplinary jurisdiction" over "[a]ny lawyer . . . admitted to,
or engaging in the practice of law in this Commonwealth."
Matter of Moore, 449 Mass. 1009, 1011 (2007), quoting S.J.C.
Rule 4:01, § 1 (1). See Matter of Fordham, 423 Mass. 481, 485
(1996). Although the respondent claims that bar counsel's
petition for administrative suspension was "frivolous" or
otherwise deficient because it did not describe the alleged
misconduct under investigation, the respondent was not
administratively suspended from the practice of law for the
conduct under investigation. He was suspended because bar
counsel established that the respondent failed to cooperate with
bar counsel's investigation, which itself' "shall constitute
misconduct and shall be grounds for appropriate discipline."
S.J.C. Rule 4:01, § 3 (1). Bar counsel's letter of February 20,
2019, see note 2, supra, adequately informed the respondent of
the nature of the misconduct under investigation.

4
hearing, at which the respondent appeared and was given an
opportunity for explanation and defense, the second single
justice was warranted in concluding that the respondent failed
to comply with the first single justice's clear and unambiguous
order. Among other things, the second single justice did not
err in concluding that the respondent rendered legal services
after the effective date of the suspension.4 See id.
Order of administrative
suspension affirmed.
Order of civil contempt
affirmed.
The case was submitted on the record, accompanied by a
memorandum of law.
Ilya Liviz, pro se.

4 To the extent the respondent claims that he was not
afforded due process, we observe that the respondent responded
in writing to bar counsel's petition for administrative
suspension and was given an opportunity to challenge the
temporary, administrative suspension in person at the hearing
before the second single justice. See Matter of Kenney, 399
Mass, at 436. See also Cleveland Bd. of Educ. v. Loudermill,
470 U.S. 532, 546 ("The opportunity to present reasons, either
in person or in writing, why proposed action should not be taken
is a fundamental due process requirement"). In the
circumstances, nothing more was required.

